Supreme Court, U.S.
FILED

AUG 2 3 2021
No. -

OFFICE OF THE CLERK

21-5602
IN THE
SUPREME COURT OF THE UNITED STATES

Charles E. Garza

— PETITIONER

(Your Name)
vs.
State of Nebraska

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Nebraska Supreme Court
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Charles E. Garza

(Your Name)
P.O. Box 22500, 4201 So. 14th Street
(Address)
Lincoln, Ne.

68542-2500

(City, State, Zip Code)
402.471

•316^B^P

(Phone Number) |J| |||

\

Questions Presented for Review

1. a. Whether or not the petitioner had an expectation of
privacy in his parked vehicle.
b. If the search and seizure of the petitioner outside of his
vehicle violated his constitutional rights.
2. a. Did the seizures outside of the warrant’s scope beyond the
express limitations imposed by the magistrate violate the
petitioner’s constitutional rights?
b. Whether or not a facially deficient warrant may be cured
by an unaccompanying affidavit.
3. Whether or not probable cause to arrest an individual
suspected of narcotic tracking establishes probable cause to
search his residence without an additional nexus to the
individual’s home.
4. Whether or not the petitioner had a reasonable expectation of
privacy in a 600 lb safe in a residence as luggage does in a
vehicle.
5. Whether or not the petitioner’s constitutional rights were
violated by the district court failing to recuse itself as
required by state and federal law.

i

\

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

ii

\

TABLE OF CONTENTS

Questions Presented for Review
List of Parties
Opinions Below
Table of Contents
Jurisdiction
Constitutional Provisions Involved
Statement of the Case
Reasons for Granting the Petition
Conclusion

Index to Appendices

Appendix
Appendix
Appendix
Appendix
Appendix

A:
B:
C:
D:
E:

Nebraska Supreme Court Order/ Opinion
Nebraska Court of Appeals Opinion
Petitioner's Reply Brief
Petitioner's Direct Brief
Nebraska Scottsbluff County District's
Court's Judgement and Sentence

Appendix F: Affidavits of probable cause and warrants
Appendix G: Supporting Documents

iv

i
ii
iii
iv

v
vi
vii
1-25
26

"Authorities Cited
Wong Sun v. United States, 371 U.S. 471 (1983)
Terry v. Ohio, 392 U.S. 1, 27 (1968)
United States v. Ross 456 U.S. 798 (1982)
Katz v. United States, 389 U.S. 347 (1967)
Rios v. United States, 364 U.S. 253 (1960)
Carroll v. United States, 389 U.S. 347 (1967)
Coolidge v. New Hampshire, 403 U.S. 443 (1971)
United States v. Taylor, 636 F.3d 461 (2011)
Johnson v. United States, 333 U.S. 10 (1948)
Henry v. United States, 361 U.S. 98 (1959)
Arizona v. Gant, 556 U.S. 332 (2009)
Chimel v. California, 395 U.S. 752 (1969)
Bashir v. Rockdale City, 445 F.3d (2006)
Miranda v. Arizona, 384 U.S. 436 (1966)
Dunaway v. New York 442 U.S. 200 (1979)
United States v. Martinez-Fuerte, 428 U.S. 543 (1976)
Weeks v. United States, 232 U.S. 383 (1914)
Mapp v. Ohio, 367 U.S. 643 (1961)
Bivens v. Six Unknown Named Agents of Federal
Bureau of Narcotics
State v. Stelly,
United States v.
(6th Cir. 2004)
United States v.
United States v.
(6th Cir. 2005)

304 Neb. 33, 932 N.W.2d 857 (2019)
Carpenter, 360 F.3d 591, 594 (6th Cir.

j 2,14
i 2,11,12
2,4
2,3,6
3
4
6,7,11
6
8
8
8
8
10
12
13
13
14
14
16
17
19

Brown, 828 F.3d 384 (2016)
Frazier, 423 F.3d 526, 533

United States v. Leon, 468 U.S. 897, 923 (1984)
Groh v. Ramirez, 540 U.S. 551 (2004)

iv

19, 20
19, 20
21,22,24
22

Authorities Cited

UNITED STATES CONST. AMEND IV

9,10,16,24 .

UNITED STATES CONST. AMEND V
UNITED STATES CONST. AMEND XIV

11

Ne. Rev. St. CONST. Art. 1 §3

10, 24

Ne. Rev. St. CONST. Art.il §7
Ne. Rev. St. CONST. Art. 1 §12

10, 16
11

Neb. Rev. St. § 5-302.11 (A)
Neb. Rev. St. § 28-105
Neb. Rev. St. § 28-202
Neb. Rev. St. §§28-416

23
vii
vii
vii

Neb. Rev. St.
Neb. Rev. St.
Neb. Rev. St.
Neb. Rev. St.
Neb. Rev. St.
Neb. Rev. St.
28 U.S.C.A §

vii
vii
6,9

§ 28-431
§ 28-1206
§ 29-404
§ 29-404.02
§ 29-404.03
§ 29-814.01
455

10

9
8
22
24

iv

t

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
M For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_-__ to the petition and is
[x] reported at A-iq-nnru74
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _ Nebraska^. Court Of Appeals
court
B
appears at Appendix
to the petition and is
p] reported at 2 9 Neb. App, 223 (State v. Garza) ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
iii'

'

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was__________________ ___ [ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: ----------------- order denying rehearing appears at Appendix
[ j An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ J For cases from state courts:
The date on which the highest state court decided my case was March 21,2021
A copy of that decision appears at Appendix---- h---[ ] A timely petition for rehearing was thereafter denied on the following date:
_________ „___________, and a copy of the order denying rehearing
appears at Appendix __—
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including---------------------- (date) on------------------------(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

v

Constitutional Provisions Involved

The pertinent portions of the Constitution are set out below:
United States Const. Amend. IV
“The right of the people to be secure in their persons, houses, papers and
effects against unreasonable searches and seizures shall not be violated and
no warrant shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched ; and the
persons or things to be seized.”

United States Const. Amend. V
shall be compelled in any criminal case to be a witness
“No person
against himself, nor be deprived of life, liberty, or property without due
process of law; ...”

United States Const. Amend. XIV
“...Nor shall any state deprive any person of life, liberty, or property without
due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”

vi

Ne. Rev. St. CONST. Art. 1 §3 Due process of law; Equal
protection
No person shall be deprived of life, liberty, or property, without due process
of law, nor be denied equal protections of the laws.

Ne. Rev. St. CONST. Art. 1 §7 Search and seizure
The right of the people to be secure in their persons, houses, papers and
effects against unreasonable searches and seizures shall not be violated ; and
no warrant shall issue but upon probable cause, supported by oath or
affirmation, and particularly describing the place to be searched ; and the
person or thing to be seized.

Ne. Rev. St. CONST. Art. 1 § 12 Evidence against self
No person shall be compelled, in any criminal case, to give evidence against
himself,...

Command n. (14c)
An order; a directive. In legal positivism, the sovereign’s express
desire that a person act or refrain acting a certain way, combined
with the threat of punishment for failure to comply. <You are
hereby Commanded>\ etc.
Black’s Law Dictionary (11th ed. 2019)08650
Bryan A. Garner, Editor in Chief

vi

Statutes and Rules
Neb. Rev. St. § 5 - 302.11 (A) Neb. Code of Judicial Conduct
Neb. Rev. St. § 28 -105 Felonies; Classification of felonies; Sentences
Neb. Rev. St. § 28 - 202 Conspiracy, defined; Penalty
Neb. Rev. St. § 28 - 416 Prohibited Acts; Violations; Penalties
Neb. Rev. St. § 28 - 431 Seized without warrant: subject to forfeiture
Neb. Rev. St. § 28 - 1206 Possession of a deadly weapon by a prohibited
person; Penalty
Neb. Rev. St. § 29 - 404 Complaint; filing; procedure; warrant; issuance
Neb. Rev. St. § 29 - 404.02 Arrest without warrant; when
Neb. Rev. St. § 29 - 404.03Arrest without warrant; conditions
Neb. Rev. St. § 29 - 814.01 Search warrant; issuance on affidavit;
procedure
28 U.S.C.A. §455 Disqualification of justice, judge, or a magistrate
judge

VI

Statement of the Case

On February 15, 2017, an information was filed in the Scottsbluff
County District Court charging Garza with conspiracy to distribute
methamphetamine within 1,000 feet of a school zone, conspiracy to
distribute more than 10 grams of methamphetamine but less than 27 grams,
conspiracy to distribute more than 28 grams of methamphetamine but less
than 140 grams, conspiracy to manufacture marijuana, 4 counts of
possessing a firearm by a prohibited person, 1 count of possessing controlled
substance (“Zanex” and Lorazepam), and “Use of Money to violate Drug
Laws” under Neb. Rev. Stat. §28-431 (Reissue 2016). (Tl-8). The first two
conspiracy charges and four counts of possessing a firearm as a prohibited
person are Class ID felonies punishable by a mandatory minimum of 3 years
and up to 50 years of imprisonment. Neb. Rev. Stat. §§28-202 (Reissue
2016); 28-105 (Reissue 2016). Conspiracy to manufacture marijuana is a
Class 2A felony, punishable by up to twenty years imprisonment. Possessing
a firearm as a prohibited person is a class 3 felony, punishable by nine
months post-release supervision to four years imprisonment and two years
post-release supervision or twenty-five thousand dollars fine, or both, if
imprisonment is imposed. Neb. Rev. Stat. §§28-1206(3)(a) (Reissue 2016);

vii

28-105 (Reissue 2016). Possessing controlled substances like Zanex and
Lorazepam are Class IV felonies, punishable by up to two years
imprisonment and twelve months post-release supervision, or ten thousand
dollars fine or both. Neb. Rev. Stat. §§ 28-416(3) & 28-105 (Reissue 2016).
Finally the original information also provided notice of its intent to seek
forfeiture of various property seized from Mr. Garza and his family
members. After a Motion to Quash was successfully litigated, an Amended
information was filed which amended the conspiracy charges to distribution
charges alleging the same amounts and locations. (T25-30) As litigation
proceeded, the Information was further amended. On September 21, 2018,
the State filed a “Second Amended Information and Petition for Forfeiture,”
which reduced the 1C distribution charge alleging an amount between 28
and 140 grams to an amount between 10 and 28 grams. (T85-89). It also
abandoned the marijuana manufacturing allegation and simple possession
charges relating to Zanex and Lorezepam. (Id.) On February 22, 2019,
another Amended Information was filed dropping the school zone allegation
contained in count 1, making the resulting charge a Class 2 felony,
punishable by one to fifty years imprisonment. Neb. Rev. Stat. §§ 28416(l)(a); 28-105 (Reissue 2016).

vii

At trial, Garza was found not guilty of one of the firearms charges and
found guilty of simple possession of methamphetamine rather than
distribution between 10 and 28 grams. (T150-153). Sentencing occurred on
April 18, 2019, after an investigation by the adult probation office. (T155159). The Court ordered counts 5, 6, and 7 to be served concurrent to one
another but consecutive to counts 1, 2, and 3. Further, counts 1, 2, and 3
were ordered to be served consecutive to one another. (Id.).

vii

Reasons for Granting the Petition

The unlawful seizure and false imprisonment of Mr. Garza
was unconstitutional and violated due process

The Nebraska Courts, to include, the Nebraska Supreme Court,
Nebraska Court of Appeals, and the Scottsbluff County District Court, in
Nebraska; all said courts involving the petitioner’s convictions disregard
constitutional safeguards guaranteed by the 4th, 5th, and 14th Amendments, of
the United States Constitution, and Nebraska Constitution §3, §7, and §12
respectively.
Throughout the course of the trial there was a multitude of instances
that established the petitioner did not want to distribute and was not going to
show up. The jury concluded this as well by finding the arrest, count 3, of
only possession without the intent to distribute (729: 9-10). From Detective
Jackson, who was in charge of the entire operation (296: 10-21), to
Investigator Holcomb who located the defendant (494: 15-24), to even the
Prosecuting Attorney dave eubanks (266: 8-16). Although one of the
petitioner’s vehicles was initially located, it was not seized as there was no
suggestion or belief that it contained contraband (495: 1-6). When the

1

defendant was eventually located, probable cause was already lacking due to
the informant’s false claim of the defendant not appearing because of a flat
tire. It is also important to note that the informant did not disclose a vehicle
description or location and that he was known to police as a liar (370:21-25,
371:1-9). This was also corroborated through his own testimony and
documentation (425: 12-16, 534: 2-4). Crucial requirements in assessing
probable cause are based on an informant’s veracity and accuracy.
Accordingly, the arrest warrant procedure “serves to insure that the
deliberate, impartial judgment of a judicial officer will be interposed
between the citizen and the police to assess weight and credibility of
information the complaining officer adduces as probable cause” Wong Sun
v. United States 371 U.S. 471 (1963). “[Pjolice must, whenever practicable
obtain advance judicial approval of searches and seizures through the
warrant procedure....” Terry v. Ohio 392 U.S. at 20, also Katz v.United
States, 389 U.S. 347 (1967). All of the accounts corroborated that it was the
petitioner they were searching for, not his vehicle. Although vehicles do
have a reduced expectation of privacy, they continue to retain securities
afforded by the Constitution. In justifying the petitioner’s vehicle search, the
Nebraska Court of Appeals relied on United States v. Ross 456 U.S. 798
(1982) which held that the automobile exception allows for “a warrantless

2

search of a mobile vehicle when there is probable cause to believe [the]
vehicle contains evidence of a crime.” The officers in the present case
waited until the petitioner entered his vehicle, asked him to exit, and then
seized and searched him. They then transported the petitioner to the police
station and towed the vehicle to a secure lot. The Government in the present
case argued that as soon as the defendant was inside of the automobile, the
vehicle would be subject to the “automobile exception”. If officers were
allowed to lie in wait for an individual to appear in a location they desired to
search, it could be used to circumvent the warrant requirement creating a
serious and recurring constitutional threat to the privacy of countless
citizens. The petitioner was entitled to and did have a reasonable expectation
that his parked vehicle would be free from disturbance. As stated in Katz V.
United States, supra, quoting Rios v. United States 364 U.S. 253 (1960),
“What a person seeks to preserve as private, even in an area accessible to the
public, may be constitutionally protected. The Fourth Amendment protects
people not places and whenever an individual may harbor a reasonable
‘expectation of privacy,’ id. at 361, 88. S. Ct. at 507, he is entitled to be free
from unreasonable governmental intrusion.’ ‘[n]o less than an individual...
in a taxicab,’ or an individual in a phone booth ‘who occupies it, shuts the
door behind him, and pays the toll’ is entitled to the protection of the Fourth

3

Amendment.” Similarly, the Court in Rios held that the defendant had an
expectation of privacy inside of the vehicle when he was questioned outside
of his taxicab. The petitioner in the present case demonstrated the same
legitimate expectation of privacy by locking his car up with the keys inside
when asked to exit the vehicle before he was seized by Officer McBride
(279: 1-24). If it was the petitioner’s vehicle officers believed contained
contraband, there was more than adequate time and personnel to secure the
automobile before the petitioner arrived (495: 1-6). Prior to the petitioner’s
arrival, the Honda was under constant surveillance by multiple officers
illustrating the complete absence of exigent circumstance and any exception
to the warrant requirement. United States v. Ross 456 U.S. 798 (1982)
(quoting Carroll, supra, stated that **In defining the nature of this
“exception” to the general rule is that “[i]n cases where the securing of a
warrant is reasonably practicable, it must be used,” id., at 156, 45 S. Ct., at
285, the Court in Carroll emphasized the importance of the requirement that
*808 officers must have probable cause to believe that the vehicle contains
contraband. Both of the vehicles in Ross and Carroll were also pulled over
on a public roadway, while the petition’s vehicle had been parked for a
significant period of time while the officers observed innocuous activity
(494:15-25, 495:1-6). Sergeant Shulte, who was one of the officers in charge

4

of securing the vehicle until the tow truck arrived, confirmed that it only
took about 15 minutes after being summoned thus eliminating any pretense
of exigency (285: 18-25, 286: 1 -4). Police cannot employ a pretext to
escape Fourth Amendment prohibitions and cannot rely on an exigency that
they created. The substantial difference of time between the buy/bust
initiation at 1:35pm and the arrest at 5:50pm as described and documented
by Det. Jackson himself expressly indicates a 4 hour variance (397:7-13,
Arrest affidavit Appendix E). It also substantiates that the petitioner was
not arrested until after the search of the Honda contrary to later claims.
The officers realized that the petitioner was not going to consummate the
deal or they simply would have stopped him on a public road when he left
the hotel as they had “planned”. A pernicious buy/ bust procedure as
described by Det. Jackson would allow any officer to use an informant to
coerce a hypothetical transaction then send other officers to find that
entrapped individual in any location, at any time and seize and search for
evidence without a warrant. The government also made no effort to show
that circumstances precluded the obtaining of a warrant. If officers believed
that they needed a warrant to search the vehicle why did they not believe
they did not need one to seize it? Seizures of automobiles are a meaningful
interference with an individual’s possessory interests and their continuing

5

means of transportation. For this reason, the duty of a magistrate is not
delegable to a police officer. By equating a police officer’s estimation of
probable cause with a magistrates utterly disregards the value of a
magistrate. Even if officers believed that they had probable cause, “probable
cause in itself does not justify a warrantless search and seizure of evidence
since absent exigent circumstance a search warrant must first obtained from
an impartial officer.” Coolidge v. New Hampshire 403 U.S. 443 (1971);
(Neb. Rev. Stat. §29-404).
Court records also support that the Honda’s search was not considered
an inventory search due to the search warrant being sought and that it was
not described as so at the suppression hearing. It is the government’s burden
to establish that the inventory exception applies. Akin to United States v.
Taylor 636 F.3d 461, 464 (8th Cir. 2011), “... the police were engaging in
their criminal investigatory function, not their caretaking function in
searching the defendants vehicle.” Katz ,supra, contributed to this stating
“routine inventories of automobiles intrude upon an area in which the private
citizen has a reasonable expectation of privacy” Thus despite there benign
purpose they constitute “searches” for purposes of the Fourth Amendment.
Security against unlawful search and seizures are more likely to be attained
by resort to a warrant than by reliance upon the caution and sagacity of petty

6

officers while acting under the excitement that attends the capture of persons
accused of a crime.
It may also be assumed that Officer McBride acted in good faith in
seizing the petitioner, but officer McBride could have not have been acting
in good faith believing that Det. Jackson had probable cause as the probable
cause wasn’t “described” for the seizures until after Det. Jackson had spoken
with the petitioner. If the subjective good faith alone were the test, the
protections of the Fourth Amendment would evaporate and people would be
‘secure in the persons, houses, papers, and effects,’ only in the discretion of
police. The unlawful seizure of the petitioner would also not be considered
as incident to arrest due to the fact the petitioner’s statement was included in
the affidavit to search the Honda. As explained in Coolidge v. New
Hampshire, supra, the seizure of the car cannot be justified as incidental to
arrest which took place at another location. Even assuming, arguendo, that
police could have properly made a search when they arrested petitioner, they
could have not done so after its removal. Pp 2032 - 2033. Under similar
circumstances present here - where the police had for some time known of
the probable role of the car in crime, the defendant had had ample
opportunity to destroy incriminating evidence, the car was guarded at the
time of arrest and the petitioner had no access to the car. This supports that

7

Det. Jackson had the petitioner seized in an attempt to find probable cause.
The seizure led to the interrogation, the interrogation led to the search
warrant, the search warrant led to the arrest. “An arrest is not justified by
what the subsequent search discloses” Johnson v. United States 333 U.S. 10
(1948). Probable cause is necessary to effectuate a seizure not a seizure to
establish probable cause. “The lawfulness of the arrest in this case must be
tested by the Fourth Amendment, and since the arrest was without warrant, it
must be based on probable cause” (Henry v. United States, 361 U.S. 98
(1959); Neb. Rev. St. §29-404.03)).
The search incident to arrest exception to the Fourth amendment
requirement as defined in Arizona v Gant, 556 U.S. 332(2009) and Chimel
v. California, 395 U.S. 752 (1969) also did not justify the search in the
present case. Both cases agreed that “... police may search incident to arrest
only the space within an arrestee’s ‘immediate control,’ meaning the area
from within which he might gain possession of a weapon or destructible
evidence.” Chimel 395 U.S., at 763, 89 S. Ct. 2034. As with Gant and
Chimel, the petitioner was not subject to arrest until after Det. Jackson had
the petitioner seized, and after the defendant was transported to the police
station, and after Det. Jackson interrogated the petitioner, and after Det.
Jackson sent the petitioner to jail, and after Det. Jackson drafted the

8

affidavit, and after Det. Jackson drafted the search warrant, and after Det.
Jackson found a judge to sign it, and after Det. Jackson traveled to the police
impound, and after Det. Jackson searched the vehicle (Appendix F). This
reiterates the point that the vehicle was not suspected of containing
contraband and under constant surveillance of multiple officers who had an
extensive period of time to seize the vehicle prior to the petitioner entering it
(494:9-25, 495:1-6). In addition, there was no contraband found on the
petitioner’s person either which should have been considered another strike
against the informant’s credibility and reliability. Meanwhile to all of this,
the petitioner was already in jail being strip searched under a false charge so
there was a necessity to find grounds for his imprisonment. If nothing was
found in the Honda then additional warrants would have to be signed until
his confinement was rationalized. The U.S. and Nebraska Constitution both
mandate that officers must have probable cause to place a person in custody
(Neb. Rev. Stat. §29-404.02, U.S. Const. Amend. IV). It is also clearly
established that an arrest without probable cause violates the 4th Amendment
and it is also in direct violation of Neb. Rev. Stat. § 29-404 stating ...
“Whenever a complaint shall be filed with the magistrate, charging any
person with the commission of an offense against the laws of this statute, it
shall be the duty of such magistrate to issue a warrant for the arrest of the

9

person accused, if he or she has reasonable grounds to believe that the
offense has been committed.” This was not followed in the present case.
When the petitioner was seized outside of his vehicle, Officer McBride
would not disclose why he was seizing the petitioner only continually
repeating that he ‘did not know why’ or ‘know what was going on’ (279: 124, E44). This is another flagrant violation of the Constitution which states
‘The right of the people to be secure in their persons, houses, papers and
effects against unreasonable searches and seizures shall not be violated.’
(U.S. Const. Amend. IV; Neb. Rev. St. CONST. Art.l §7) and ‘No State
shall deprive any person of life, liberty, or property without due process of
law; nor deny to any person within its jurisdiction the equal protection of the
laws'(U.S. Const. Amend. XIV; Neb. Rev. St. CONST. Art. 1 §3).
Accordingly, in Bashir v. Rockdale City 445 F.3d 1323, 1332, 11th Cir. 2006
it was held that “if an arresting officer does not have the right to make an
arrest, he does not have the right to use any degree of force in making that
arrest.” This would include the actions of Officer McBride when he
handcuffed and forced the petitioner into his vehicle to be interrogated by
Det. Jackson at the police station. Any reasonable officer in McBride’s
position would have known he could not have placed the petitioner under
arrest. If Det. Jackson genuinely believed that he had probable cause, he

10

should have applied for an arrest warrant. Generally the Constitution
requires that someone independent of the police and prosecution review a
warrant application to determine whether there is “probable cause to believe
a citizen guilty” of a crime and to issue an arrest warrant. Coolidge v. New
Hampshire, 403 U.S. 443 (1971). The Fourth Amendment also protects “the
right of every individual to the possession and control of his own person,
free from all restraint or interference from others, unless by clear and
unquestionable authority of law.” Terry v. Ohio 392 U.S. 1 (1968). (288: 1525, 289: 1-5) Under pressure to make cases and determined to find probable
cause, Det. Jackson would not allow the petitioner to be uncuffed, call out or
leave during the interrogation. When the petitioner adamantly inquired as to
why he was being held Det. Jackson stated that he would “get to that later”
but wanted information for the petitioners supposed release (353: 10- 25,
E79). For an officer to hold an individual for the sole purpose of providing
information is a blatant disregard for any citizen’s constitutional rights. ‘No
person shall be held... nor be compelled in any criminal case to be a witness
against himself, nor be deprived of life,liberty, or property without due
process of the law” (U.S. Const., Amend. V; Neb. Rev. St. CONST. Art. 1
§ 12). “.. .while the police have the right to request citizens to answer
voluntarily questions concerning unsolved crimes they have no right to

11

J

compel them to answer.” (emphasis added) Miranda v. Arizona 384 U.S.
436 (1966). “nothing is more clear than the Fourth Amendment was meant
to prevent wholesale intrusions upon the personal security of our citizenry,
whatever these intrusions *727 be termed ‘arrests’ or ‘investigatory
detentions.’” This was made explicit in Terry v. Ohio, 392 U.S. 1, 889
(1968). The only statement that was used from the interrogation that
exhibited what Det. Jackson believed was probable cause for the search
warrant was ‘Charles told me that there was a backpack in his car that
belongs to a friend that he dropped off at that Circle S Lodge, that he does
not know what the contents of the backpack are.’ After the search was
completed, Det., Jackson later conceded that “The backpack contained
nothing of evidentiary value” (354: 15 - 25, 355: 1-4). Against Const.
Amend. IV, V, and XIV Det. Jackson unlawfully held the defendant in his
attempt to establish probable cause which was condemned in Dunaway v.
New York 442 U.S. 200 (1979). The Court in Dunaway suppressed the
defendant’s confession which had been obtained when he was taken into
police custody without a warrant or probable cause. In spite of the present
petitioner’s statement being innocent Det. Jackson included it along with the
petitioner’s unlawful seizure for almost half of the Honda’s search warrant
affidavit. Removing this substantial section of the affidavit would only leave

12

the initial portion of the document explaining his need of an arrest warrant
not a search warrant and the requirement of a magistrate to determine if
there was probable cause. Prior review may also “prevent hindsight from
coloring the evaluation of the reasonableness of a search and seizure” United
States v Martinez-Fuerte, 428 U.S. 543, 565, 96 S. Ct. 3074, 3086, 49 L. Ed.
2d 1116 (1976). Moreover, when the search has been productive the
hindsight of the magistrate is more likely to be distorted. In Dunaway v.
New York, supra, the defendant was taken to a police car, transported to a
police station, and placed in an interrogation room. There it was held clear
that the detention was “in important respects indistinguishable from a
traditional arrest” and therefore required probable cause or judicial
authorization to be legal. Such involuntary transport to a police station for
questioning is sufficiently like arrest to invoke the traditional rule that arrests
may constitutionally be made only on probable cause. A seizure is more
likely to be a greater intrusion than an immediate search especially without
exigent circumstance. Situations such as these are a prime example in which
the exclusionary rule should be applied to discourage this ‘jail now, justify
later’ conduct that is clearly not novel (162:4-25, 163:1-12, Addendum G).
Regarding this, the exclusionary rule requires the suppression of not only the
evidence improperly seized, but “extends as well to the indirect as the direct

13

products of such invasions.” Wong Sun, 371 U.S. at 484, 83 S. Ct. 407. In
Wong Sun, supra, narcotics were suppressed for the reason that their
discovery stemmed directly from a violation of Toy’s Fourth Amendment
rights. Id. 371 U.S. at 487-88. Thus, while the government might lose
evidence is some cases, it is evidence they were not entitled to under the
Constitution. As stated in Weeks v. United States, 232 U.S. 383 (1914) “If
evidence seized in violation of the Fourth Amendment can be used against
an accused his right to be secure against such searches and seizures, is of no
value and *** might as well be stricken from the Constitution.” 232 at page
393, 34 S. Ct. at page 344. “.. .experience has taught us that it is the only
effective deterrent to police misconduct in the criminal context, and that
without it the Constitutional guarantee against unreasonable searches would
be a ‘mere form of words’” Mapp v. Ohio, 367 U.S. 643, (1961). Therefore,
if conduct outside the realm of a lawful investigation falls beyond the pale of
the Fourth Amendment, any attempt to exploit it by retrieving its fruits for
subsequent use in a criminal prosecution should be condemned and
suppressed under the same authority. The seizure of the petitioner was
unauthorized, unlawful, and violated the guarantee of due process and
securities provided by the Constitution. For the reasons presented herein the
petitioner pleads the Court to grant certiorari and find the motion to suppress

14

for the Honda Accord and subsequent warrants derived from its issuance
appropriate to deter this type of reckless and careless behavior.

The unconstitutional search and seizure of the
petitioner’s vehicle.

15

Firstly, the search warrant for the Honda only commands the search
and seizure of a cell phone (Addendum E). The Fourth Amendment provides
that “no warrants shall issue but upon probable cause... particularly
describing the place to be searched, and persons or things to be seized” (U.S.
Const. Amend. IV; Neb. Rev. St CONST. Art. 1 §7). The requirement that
warrants shall particularly describe the things to be seized makes general
searches impossible and prevents the seizure of one thing under a warrant
describing another. As to what is to be taken, nothing is left to the discretion
of the officer executing the warrant. The Fourth Amendment’s particularity
requirement is not a mere technicality; it expresses constitutional command
and “confines an officer executing a search warrant strictly within the
bounds set by the warrant” Bivens v. Six Unknown Named Agents of
Federal Bureau ofNarcotics, 403 U.S. 388 (1971). The language ofthe
warrants affidavit also indicates where Det. Jackson suspected to find
contraband within the vehicle. When the backpack was searched and nothing
found it should have established an even greater representation of probable
cause and his persistence in a general search for evidence to convict upon.
Outside of the scope of both the warrant and affidavit, the petitioner’s driver
license was also taken violating the Fourth Amendment’s particularity clause
once again. Along with these affronts to the Constitution, the Honda’s search

16

warrant affidavit did not state that the automobile was involved in any sort
of illegal activity or why its seizure was warranted. Probable cause
undoubtedly requires a nexus between suspected criminal activity and the
place to be searched. The word automobile is not a talisman in whose
presence the Fourth Amendment fades away and disappears. Det. Jackson
also failed to be present at the Honda’s location to establish probable cause
for the seizure. Accordingly, under the Fourth Amendment, a warrant or
seizure without probable cause is per se unreasonable. The described
“probable cause” was also only eventually acquired through the illegal
seizure of the petitioner. Between the lack of probable cause and lack of
particularity the Honda search warrant fails the requirements of the
Constitution. Disregarding this, the Nebraska Court of Appeals decided to
justify these unconstitutional acts under the “cure by affidavit” doctrine held
in State v. Stelly, 304 Neb. 33 (2019). State v. Stelly, supra, that holds “an
inadvertent defect in a search warrant may be cured by reference to an
affidavit if the affidavit is incorporated in the warrant or referred to in the
warrant and the affidavit accompanies the warrant” (emphasis added). While
the affidavit may have been referenced in the warrant, the affidavit failed to
accompany the warrant for the search due to being sealed (Appendix E, G).
If a warrant is facially defective and the affidavit does not accompany the

17

warrant to “cure” the defects, an objectively reasonably belief or “good
faith” in a search or seizure outside of a warrants’ scope of only a cell phone
would be impossible. Lack of the accompanying affidavit may also be
corroborated by the inventory list which precisely stated that only the
warrant and inventory list were present (Appendix F). The driver’s license
that was listed on the Honda’s Inventory was also seized beyond the warrant
and affidavit’s scope and later used as a basis for subsequent searches
bearing similar deficiencies. For the reasons presented here, the petitioner
pleads the Court to validate the motion to suppress for the Honda Accord
along with the subsequent search warrants derived from its issuance and
vacate the petitioner’s convictions.

18

The unconstitutional search of the Schmid Dr.
residence and petitioner’s RV

The following search warrant for the Schmid dr. residence also fails
by multiple Constitutional standards. Firstly, the warrant that was initially
requested for the residence did not include firearms. This is due to the
petitioner not being suspected of firearms as validated through multiple
sources (381: 2-25, 382: 1-2, 426: 10-17). In United States v. Carpenter,
supra, it was held “that because the Fourth Amendment requires a search
warrant to particularly... describe the things to be seized., the affidavit
supporting the search must demonstrate a nexus between the evidence
sought and the place to be searched'^60 F.3d at 594. The connection
between the residence and the evidence of wrong doing must be specific and
concrete, not “vague” or “generalized”, Id. At 595. “If the affidavit fails to
include facts that directly connect the residence with suspected drug dealing
activity, or the evidence of this connection is unreliable, it cannot be inferred
that drugs will be found in the defendants home” United States v. Brown,
828 F.3d at 384 (2016). The Court in United States v. Frazier, 423 F.3d 526,
533 (6th Cir. 2005) concurred the same stating “we have never held that a
suspects’ status as a drug dealer, standing alone, gives rise to a fair
19

probability that drugs will be found in his home. Rather, we have required
some reliable evidence connecting the known drug dealer’s ongoing activity
to the residence..In the present case, the search warrant affidavit
contained no evidence that the petitioner distributed narcotics, that he ever
used it to store narcotics or firearms, or that any suspicious activity had ever
taken place there. “Probable cause to arrest a suspect does not necessarily
establish probable cause to search the suspect’s home” United States v.
Brown,supra,. The affidavits for the Schmid dr. residence and the RV were
also sealed. Even if the affidavit was present for argument’s sake, it was so
lacking in indicia of probable cause that the officers could not in good faith
relied on the warrant in conducting the search of the residence. With no
suspicion there is most definitely not probable cause. Det. Jackson himself
testified that it was only after they were discovered they were seized “out of
an abundance of caution” (58:5 - 59:16). In addition to all of this, with the
combination of the unwarranted seizure of the petitioner’s driver’s license
and the unlawful seizure of the petitioner to establish the believed probable
cause for the search of the residence, there would have been an insufficient
nexus to lead to the Schmid dr. home. “The review of the sufficiency of the
evidence supporting probable cause is limited to the information presented
*

in the four comers of the affidavit United States v. Frazier, supra,. The very

20

fact that a second warrant was sought to include firearms illustrates Det.
Jackson’s determination in a general search for evidence to convict upon
against the express limitations of the Constitution. General searches violate
fundamental rights and are forbidden by the Constitution. The search of the
Schmid dr. residence may also be considered a general search due to the
multiple unrelated items that were seized outside of the warrant’s scope
without probable cause. Items include a DVR, 3 cameras, a box of business
cards, a hard drive, a money clip, a tablet portable wifi, 2 laptops, a
briefcase, a sword, and a vehicle title (Appendix E). When officers are
allowed to search in wide exploratory searches without consequence, it only
encourages future constitutional violations to become routine.
Unsurprisingly, the second search warrant for the Schmid dr.
residence also failed to include safes or firearms. By the “cure by affidavit”
standard the warrant may have been saved but Det. Jackson, who applied for
the warrant, failed to return to the scene of the search leaving the searching
officers without an affidavit or even a warrant to abide by (330: 14- 16).
United States v. Leon, 468 U.S. 897 (1984) precluded qualified immunity
for the officer because he was the leader of the search who did not read the
warrant and satisfy himself that he understood the scope and limitations and
that it was not obviously defective 298 F.3d at 1027.ftWhere a warrant is

21

sufficiently facially deficient... executing officers cannot reasonably
presume it to be valid” Leon, 468 U.S. at 923. Similar to Groh v. Ramirez,
540 U.S. 55 (2004), the search warrant did not meet the Fourth
Amendment’s unambiguous requirement that a warrant “particularly
describ[e] ... the persons or things to be seized.” The application adequately
describing those things does not save the warrant. Fourth Amendment
interests are not necessarily vindicated when another document says
something about the objects of the search, but that documents contents are
neither known to the person whose home is being searched nor available for
her inspection. A search or seizure without an affidavit of probable cause or
even a warrant is undoubtedly forbidden by the Fourth Amendment and a
violation of due process. This would include the two innocent people who
were arrested and charged when they returned home from work (605: 17-25,
606: 1-23).
Subsequent to the search of the Schmid dr. residence, Det. Jackson
discovered the physical address of petitioner. Absent legitimate probable
cause or a nexus and providing only a generalization, Det. Jackson obtained
a warrant for the RV. This next search of the RV led to another locked safe
which was bolted to the floor and also not included in the warrant. After
being destructively removed, the safe was transported to the police station

22

where it was unconstitutionally opened without a warrant (E73). The
container was not open to the public and without an exigent circumstance it
had an expectation of privacy society would recognize as reasonable thus
requiring a separate warrant. The petitioner and his family held this same
reasonable expectation of privacy by bolting the safe to the floor of the RV
to protect the personal effects within (418: 3-25, 419: 1-25, 420: 1-7, E84,
Appendix E). It should also be noted that Det. Jackson was not present
during the opening of the RV safe either and the affidavit did not accompany
the warrant (Appendix E). If a person’s luggage in a vehicle, which has a
reduced expectation of privacy and a myriad of exceptions, possesses
constitutional protection, would not a locked safe bolted to the floor of a
home which is considered the very essence of which the Fourth Amendment
is based upon?
Included in the litany of Constitutional violations in the present case,
the judge presiding over the not one but two suppression hearings failed to
recuse himself when motioned to do so. Just recently discovered by the
petitioner and under the Nebraska Revised Code of Judicial Conduct, a
judge must recuse himself from a case if the judge’s impartiality might be
reasonably be questioned §5-302.11(A). The right to an impartial judge is
guaranteed under the Due Process Clauses of the U.S. and Nebraska

23

Constitution (U.S Const. Amend. IV; Neb. Rev. St. CONST. Art. §3; 28
U.S.C.A §455). This was a violation of the petitioner’s due process due to
the initial search warrant for the Honda being signed by the same judge who
presided over the suppression hearings. In the event that the initial warrant
for the Honda would be found to be invalid, it would nullify subsequent
warrants allowing the petitioner who had already been detained for two
years and his innocent family who had already been prosecuted the
opportunity to be vindicated and the county along with the officers involved
being liable for their conduct. This would be more than a sufficient cause
for the same deciding judge to have a strong personal interest of trial and
unable to hold proper balance between State and the defendant, thus creating
structural error and a violation of due process (U.S.C.A. Amend IV; Neb.
Rev. St. CONST. Art. 1 §3). With the presiding judge acting as ‘an adjunct
law officer’ /suppression remains an appropriate remedy where the issuing
magistrate wholly abandoned his judicial role” United States v. Leon, supra,.
This would also be supported by the Honda Accord search warrant that was
signed after the defendant had already been strip searched and jailed along
with his vehicle seized. For the foregoing reasons, petitioner respectfully
requests that the Court determine the search warrants unsupported by
probable cause, reverse the Scottsbluff District Court’s along with the

24

1

Nebraska Court of Appeals’ denial of motion to suppress, and vacate the
aforementioned convictions.

25

j

Conclusion
The petition for the writ of certiorari should be granted.

Respectfully submitted,

1

Petitioner pro se
Charles E. Garza
P.O. Box 22500
Lincoln, Ne 68542
Ph: 402.471.3161

^

Date: August 1*^?£021

26

